                                  December 22, 2004




MEMORANDUM TO:             Luis A. Reyes
                           Executive Director for Operations

                           Jesse L. Funches
                           Chief Financial Officer



FROM:                      Stephen D. Dingbaum/RA/
                           Assistant Inspector General for Audits


SUBJECT:                   MEMORANDUM REPORT: REVIEW OF NRC’S
                           IMPLEMENTATION OF THE FEDERAL MANAGERS’
                           FINANCIAL INTEGRITY ACT FOR FISCAL YEAR 2004
                           (OIG-05-A-07)


This report reflects the Office of the Inspector General’s (OIG) assessment of the
Nuclear Regulatory Commission’s (NRC) FY 2004 compliance with the Federal
Managers’ Financial Integrity Act (FMFIA) of 1982. We found that, except for the fee
billing system material weakness, NRC complied with the FMFIA. This report contains
no recommendations because the fee billing system material weakness and the
associated audit recommendations are included in the OIG’s report on NRC’s financial
statements for FYs 2004 and 2003, report number OIG-05-A-02, dated
November 12, 2004.

BACKGROUND

The FMFIA was enacted on September 8, 1982, in response to continuing disclosures
of waste, loss, unauthorized use, and misappropriation of funds or assets associated
with weak internal controls and accounting systems. Congress felt such abuses
hampered the effectiveness and accountability of the Federal Government and eroded
the public’s confidence. The FMFIA requires Federal managers to establish a
continuous process for evaluating, improving, and reporting on the internal controls and
accounting systems for which they are responsible.
The FMFIA requires that, each year, the head of each executive agency (subject to the
FMFIA) shall submit a report to the President and the Congress on the status of
management controls and financial systems that protect the integrity of agency
programs and administrative activities. NRC incorporates its FMFIA assessment and
report in its annual Performance and Accountability Report.

RESULTS

The Chairman and the Inspector General each reported different results on the
agency’s FY 2004 compliance with the FMFIA because they each properly used
different criteria in their respective analyses. The Chairman certified the agency’s
compliance with the provisions of the FMFIA and did not identify any material
weakness. The Inspector General identified one FMFIA material weakness concerning
the agency’s fee billing system.

      Chairman’s Criteria and Results

Office of Management and Budget Circular A-123, Revised, Management Accountability
and Control, is the agency’s implementing guidance for FMFIA. It states, “A deficiency
that the agency head determines to be significant enough to be reported outside the
agency (i.e., included in the annual Integrity Act report to the President and the
Congress) shall be considered a ‘material weakness.’…” NRC includes this criteria in
its Management Directive 4.4, Management Controls. The term “internal controls,” as
envisioned by the FMFIA, is synonymous with “management controls” and
encompasses program and administrative areas, as well as the accounting and financial
management areas.

Using this criteria, the Chairman, in the NRC’s FY 2004 Performance and Accountability
Report, explained that NRC evaluated its management controls and financial
management systems as required by the FMFIA. Based on the agency’s
comprehensive management control program, the Chairman certified, with reasonable
assurance, that the NRC is in compliance with the provisions of the FMFIA.

      Inspector General’s Criteria and Results

Office of Management and Budget Bulletin No. 01-02, Audit Requirements for Federal
Financial Statements, dated October 16, 2000, provides the criteria used by the
Inspector General. Paragraph 2.j. of the Attachment to the Circular states:

      “Material weaknesses in internal control” are reportable conditions in
      which the design or operation of the internal control does not reduce to a
      relatively low level the risk that errors, fraud or noncompliance in amounts
      that would be material in relation to the Principal Statements or Required
      Supplementary Stewardship Information being audited, or material to a
      performance measure or aggregation of related performance measures,
      may occur and not be detected within a timely period by employees in the
      normal course of performing their assigned functions. The auditor shall

                                           2
      use this definition of material weaknesses to report on an entity’s internal
      control in accordance with the requirements of Government Auditing
      Standards and this Bulletin, rather than the definition of material
      weaknesses used by management to prepare an agency’s Federal
      Managers’ Financial Integrity Act (FMFIA) of 1982 report.

The Inspector General applied the aforementioned criteria and found that, for FY 2004,
except for the fee billing system material weakness, the NRC complied with the
provisions of the FMFIA. The fee billing system material weakness is fully explained in
OIG’s report on NRC’s financial statements for FYs 2004 and 2003, report number
OIG-05-A-02, dated November 12, 2004.

AGENCY COMMENTS

A draft of the report was shared with NRC management. On December 16, 2004, the
Chief Financial Officer replied that the Office of the Executive Director for Operations
and the Office of the Chief Financial Officer had no comments.

SCOPE/CONTRIBUTORS

We evaluated the management controls related to the NRC’s implementation of the
FMFIA for FY 2004, and conducted our work in October and November 2004, in
accordance with generally accepted Government auditing standards. This audit was
conducted by Steven Shea, Senior Auditor.

If you have any questions, please contact me at 415-5915 or Steven Zane at 415-5912.

cc:   Chairman Diaz
      Commissioner McGaffigan
      Commissioner Merrifield
      W. Dean, OEDO
      M. Malloy, OEDO
      P. Tressler, OEDO




                                            3
